No. 19-357

INTHE

CITY OF CHICAGO,

Petitioner,

V.

ROBBIN L. FULTON, JASON S. HOWARD,
GEORGE PEAKE, AND TIMOTHY SHANNON,

Respondents.

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SEVENTH CIRCUIT

CERTIFICATE OF SERVICE

, Cr ·g Goldblatt, a member of the bar of this Court, hereby certify that, on t is
3rd da of bruary, 2020, all parties required to be served have been served copies of
the Bri f fo Petitioner and accompanying Joint Appendix in this matter by email a d
rier to the address below.

ood Avenue
.com

CRAIG GOLDBLATT
WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Avenue NW
Washington, DC 20006
(202) 663-6000
craig.goldblatt@wilmerhale.com

